           PROMPTNESS AND COMPLETENESS OF
       FY 2001 FOURTH QUARTER DOD PAYMENTS TO
   THE U.S. TREASURY FOR WATER AND SEWER SERVICES
        PROVIDED BY THE DISTRICT OF COLUMBIA


Report No. D-2001-159                      July 13, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
DFAS                  Defense Finance and Accounting Service
FOWM                  Federally Owned Water Main
WASA                  Water and Sewer Authority
                        Office of the Inspector General, DoD
Report No. D-2001-159                                                   July 13, 2001
   (Project No. D2001FA-0070.002)

        Promptness and Completeness of FY 2001 Fourth Quarter
        DoD Payments to the U.S. Treasury for Water and Sewer
             Services Provided by the District of Columbia

                                    Executive Summary

Introduction. This report is the third in a series of quarterly reports and discusses the
promptness and completeness of DoD payments for water and sewer services provided
by the District of Columbia for the fourth quarter of FY 2001. The audit was required
by Public Law 106-554, the Consolidated Appropriations Act of 2001. Public
Law 106-554 requires the inspectors general of each Federal agency to report to the
House and Senate Appropriations Committees on the promptness of each agency’s
payments of bills for water and sewer services received from the District of Columbia.
The inspector general reports are to be submitted to the Committees within 15 days of
the end of each quarter.

The District of Columbia Water and Sewer Authority provides both water supply and
wastewater treatment services to Federal agencies and DoD Components within the
National Capital Region. The U.S. Treasury is the collection agent for Federal
agencies’ and DoD Components’ water and sewer payments, with the U.S. Treasury
submitting a single payment to the Water and Sewer Authority. The DoD Components,
composed of 18 separate installations, sites, and organizations, are required to make
quarterly payments to the U.S. Treasury for the services provided.

Objective. The audit objective was to determine the promptness of quarterly
DoD payments to the U.S. Treasury for water and sewer services provided by the
District of Columbia. This report focuses on the promptness and completeness of DoD
payments for the fourth quarter of FY 2001. This report also addresses the status of
DoD Components’ bills and payments from FYs 1992 through 2001.

Results. DoD Components’ payments for water and sewer services received from
WASA were prompt and complete for the fourth quarter of FY 2001. For the period of
FYs 1992 through 2001, DoD Components paid 82 percent of water and sewer bills
because:
     • DoD Components did not agree with the U.S. Treasury’s estimated water and
       sewer bills and had not paid disputed amounts;

     • The U.S. Treasury did not provide allocated water and sewer bills to DoD
       users of the Federally Owned Water Main (FOWM) until June 2001 and prior
       to June 2001, DoD users generally paid what they considered to be their “fair
       share;” and

     • Water and Sewer Authority did not have an effective process for ensuring that
       individual users of the Federally Owned Water were charged for actual usage.

However, as of June 27, 2001, DoD Components paid or the U.S. Treasury withdrew
the remaining 18 percent, or $18.4 million, based on the U.S. Treasury’s authority
under Public Law 106-554 to withdraw appropriations for prior year outstanding bills.
Management Comments. The Air Force provided comments stating that the U.S.
Treasury withdrew the unpaid balance for all prior year bills on June 27, 2001. See the
Management Comments section for a complete text of the management comments. We
also received informal comments from the other DoD Components stating that all
outstanding balances had been paid.

Audit Response. We revised the final report to reflect all payments made to the U.S.
Treasury as of June 27, 2001.




                                          ii
Table of Contents

Executive Summary                                         i


Introduction
     Background                                           1
     Objective                                            2

Finding
     DoD Payments to the U.S. Treasury                   3

Appendixes
     A. Audit Process
         Scope and Methodology                           10
         Prior Coverage                                  11
     B. DoD Customers of the Water and Sewer Authority   12
     C. Report Distribution                              13

Management Comments
     Department of the Air Force                         15
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations Act
    of 2001. Public Law 106-554 requires the inspectors general of each Federal agency
    that receives water and sewer services from the District of Columbia to report to the
    Congressional Appropriations Committees on the promptness of payments within
    15 days of the end of each quarter. This report is the third in a series of quarterly
    reports and discusses the promptness and completeness of DoD payments for the fourth
    quarter of FY 2001. This report also discusses the completeness of prior year
    payments.

    The District of Columbia Water and Sewer Authority. The District of Columbia
    provides both water supply and wastewater treatment services to Federal agencies and
    DoD Components within the National Capital Region. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and sewer
    services from the District of Columbia. The District of Columbia was paid with an
    annual lump sum in accordance with the District of Columbia Appropriations Act. The
    District of Columbia Appropriations Act of 1990 (Public Law 101-168) changed the
    payment process by designating the U.S. Treasury as the collection agent for the
    Federal agencies’ water and sewer payments, with the U.S. Treasury remitting a single
    payment to the District of Columbia. In October 1996, the District of Columbia City
    Council transferred water and sewer responsibilities from the Department of Public
    Works to the Water and Sewer Authority (WASA). WASA provides meter readings
    and annual estimated billings to the U.S. Treasury for water and sewer services
    provided to the Federal agencies, including DoD Components. See Appendix B for a
    list of DoD Components, composed of 18 separate installations, sites, and
    organizations, that received WASA services.

    U.S. Treasury. The U.S. Treasury has the responsibility for paying WASA for water
    and sewer services provided to Federal agencies, including DoD Components. Based
    on meter readings and estimated bills that WASA provides to the U.S. Treasury, the
    U.S. Treasury makes quarterly payments to WASA. The U.S. Treasury bills Federal
    agencies and DoD Components annually for their estimated water and sewer usage.
    The DoD Components are required to make quarterly payments to the U.S. Treasury
    for those annually estimated bills. DoD Components make their payments to the
    U.S. Treasury through the Defense Finance and Accounting Service (DFAS).

    DFAS Responsibilities. DFAS provides accounting services, to include making bill
    payments, to DoD Components and other Federal agencies. Specifically, DFAS
    Indianapolis provides financial services to the Army, DFAS Cleveland provides those
    same services to the Navy, and DFAS Denver provides financial services to the Air
    Force. The DoD Components submit requests for payments of water and sewer
    services to the appropriate DFAS location, and DFAS pays the U.S. Treasury either by
    check or electronically.




                                          1
Objective
    The objective was to determine the promptness of quarterly DoD payments to the
    U.S. Treasury for water and sewer services provided by the Government of the District
    of Columbia. This report focuses on the promptness and completeness of quarterly
    DoD payments for the fourth quarter of FY 2001. This report also addresses DoD
    Components’ disputed and unpaid bills from FY 1992 through FY 2001. Appendix A
    discusses the audit scope and methodology and prior audit coverage.




                                          2
           DoD Payments to the U.S. Treasury
           DoD Components’ payments for water and sewer services received from WASA
           were prompt and complete for the fourth quarter of FY 2001. For the period of
           FYs 1992 through 2001, DoD Components paid 82 percent of water and sewer
           bills because:

                  •   DoD Components did not agree with the U.S. Treasury’s estimated
                      water and sewer bills and had not paid disputed amounts;

                  •   The U.S. Treasury did not provide allocated water and sewer bills to
                      DoD users of the Federally Owned Water Main (FOWM) until
                      June 2001 and prior to June 2001, DoD users generally paid what
                      they considered to be their “fair share;” and

                  •   WASA did not have an effective process for ensuring that individual
                      users of the FOWM were charged for actual usage.

           However, as of June 27, 2001, DoD Components paid or the U.S. Treasury
           withdrew the remaining 18 percent, or $18.4 million, based on the U.S.
           Treasury’s authority under Public Law 106-554 to withdraw appropriations for
           prior year outstanding bills.

Water and Sewer Payment Legislation
    1990 Legislation. Public Law 101-168, the District of Columbia Appropriations Act of
    1990, changed the payment method for Federal agencies’ water and sewer consumption
    within the District of Columbia. Public Law 101-168 shifted responsibility for payment
    of water and sewer bills to the respective Federal agencies. Under Public
    Law 101-168, WASA is required to submit an annual budget to the Office of
    Management and Budget on April 15 of each year that includes an estimate of the cost
    of services for the Federal agencies. WASA also submits the estimated costs in a bill to
    the U.S. Treasury for the Federal agencies within the National Capital Region. The
    U.S. Treasury serves as a collection agent, receiving payments from individual
    agencies for their share of the estimated water and sewer usage, and remitting a single
    payment to the District of Columbia. Funds for water and sewer services come through
    the agencies’ own operating budgets and their respective appropriations bills. The
    Federal agencies are required to make quarterly payments to the U.S. Treasury account
    entitled “Federal Payment for Water and Sewer Services” on the first day of each
    quarter. The U.S. Treasury is required to pay WASA from this account on the second
    day of each quarter. If there are insufficient funds in the account, the Secretary of the
    Treasury is to make payments from available funds, subject to reimbursement by the
    user agencies.

    2001 Legislation. Public Law 106-554 amended the payment process so that the
    U.S. Treasury is now authorized and directed to automatically withdraw funds from
    Federal agencies and provide those funds to WASA by the second day of each quarter,
    when agencies do not forward timely payments of amounts billed by WASA.


                                            3
    Public Law 106-554 also directs that the withdrawal of funds be applied to current
    billed amounts and retroactively to past due amounts dating back to FY 1990. See
    Inspector General, DoD, Report No. D-2001-100, “Promptness and Completeness of
    FYs 2000 and 2001 DoD Payments to the U.S. Treasury for Water and Sewer Services
    Provided by the District of Columbia,” April 13, 2001, for a detailed explanation of the
    billing process and examples of U.S. Treasury FYs 2000 and 2001 billing letters.
    Although the Public Law does not allow any disputes over the estimated bill amounts,
    the U.S. Treasury sent revised billing letters in June 2001 stating that the DoD
    Components should discuss disagreements regarding billed amounts with WASA. Any
    agreements or bill adjustments that DoD Components make with WASA should be
    provided to the U.S. Treasury in writing.

Promptness and Completeness of Fourth Quarter Payments
    As of June 27, 2001, DoD Components made prompt payments for the billed amounts
    for FY 2001, including the fourth quarter payments. As shown in Table 1, DoD
    Components were billed and paid the U.S. Treasury $5.7 million for FY 2001.




                                           4
              Table 1. U.S. Treasury Billings and Payments for FY 2001
                                (As of June 27, 2001)
                                                          Amount Billed and Paid
                                                                 (thousands)

     Walter Reed Army Medical Center                               $ 6241
     Fort McNair2                                                      27
     Navy3                                                          2,241
     Bolling Air Force Base                                         1,279
     Pentagon                                                         608
     Fort Myer4                                                         0
     Arlington National Cemetery                                      158
     National Imagery and Mapping Agency                              765
       Total                                                       $5,702

     1
       Actual billed amount for FY 2001 was $793,000; however, credits from prior
         years reduced the amount owed in FY 2001 to $624,000.
     2
       Includes Fort McNair, National War College, and National Defense
         University Center
     3
       Includes Anacostia Naval Station, Bellevue Naval Housing, Naval
         Observatory, Marine Corps Barracks (8th & I), Naval Research Laboratory,
         Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard
     4
       Fort Myer was not billed and did not make any payments in FY 2001 because
         it discontinued water services in January 1999. Fort Myer receives and pays
         for water services provided by Arlington County, Virginia.


    DoD Components’ payments were generally prompt and complete for FY 2001.

Status of DoD Payments for FYs 1992 through 2001
    Public Law 101-168 requires DoD Components to make quarterly payments to the
    U.S. Treasury by the first day of each quarter based on one-fourth of the estimated
    yearly bill. However, DoD Components have not always made prompt and complete
    payments in accordance with the law. In the first report of this series, Inspector
    General, DoD, Report No. D-2001-053, “DoD Payments to the U.S. Treasury for
    Water and Sewer Services Provided by the District of Columbia,” February 15, 2001,
    we reported that DoD Components had unpaid bills for FYs 1990 through 2001 totaling
    $28.2 million. Since that report, the DoD Components, the U.S. Treasury, and
    Inspector General, DoD, audit staff have been working together to reconcile all


                                           5
    outstanding and past due amounts. As a result, the reconciliation process determined
    that DoD Components still owed the U.S. Treasury $18.4 million for FYs 1992
    through 2001, as of June 25, 2001. See Table 2 for a breakdown by Component. On
    June 12, 2001, the U.S. Treasury sent letters to all DoD Components that are
    delinquent in payment. The letters stated that the U.S. Treasury plans to withdraw all
    past due funds from their appropriations if the U.S. Treasury has not received payment
    by June 25, 2001. As a result, DoD Components made payments or the U.S Treasury
    withdrew funds totaling $18.4 million on June 27, 2001.

                     Table 2. U.S. Treasury Billings and Payments
                              For FYs 1992 through 2001
                                    (in thousands)

 DoD                   Amount Billed           Payments Prior        Payments Made
Component              Per U.S.Treasury1       to June 25, 2001      on June 27, 2001
Defense Virginia2          $ 10,744                   $ 5,221            $ 5,5233
Army4                         7,208                     6,448                 760
Navy5                        55,077                    49,033               6,044
Air Force6                   23,690                    17,404               6,286
NIMA7                         5,917                     5,765                 152

    Total                  $102,636                   $84,171            $18,465

1
  The amounts include actual usage for FYs 1992 through 1998 and estimated bills
   for FYs 1999 through 2001
2
  Includes the Pentagon, Arlington Cemetery and Fort Myer because they share the
   same meter and are not billed separately.
3
  This amount includes a $373,000 credit that Fort Myer received due to an overpayment
   on behalf of the Department of the Army
4
  Includes Fort McNair, Walter Reed Army Medical Center, National War College,
   and National Defense University Center.
5
  Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory,
   Marine Corps Barracks (8th & I), Naval Research Laboratory, Nebraska Avenue
   Annex, Potomac Annex, and Washington Navy Yard
6
  Includes Andrews Air Force Base and Bolling Air Force Base; the amount used for
   Andrews Air Force Base includes FYs 1991 through 1993.
7
  National Imagery and Mapping Agency

    Detailed information shown in Table 2 is discussed in the following paragraphs.

    Defense Virginia. The Pentagon, Fort Myer and Arlington National Cemetery are
    collectively referred to in this report as “Defense Virginia.” The Defense Virginia
    components owed $5.5 million for FYs 1992 through 2001, as of June 25, 2001. The
    Defense Virginia components and two non-DoD facilities, Interior Department and


                                           6
Ronald Reagan National Airport, are all users of the FOWM. WASA used two meters
shared among the Defense Virginia components and the two non-DoD facilities to
determine each facility's water usage and the amount the U.S. Treasury should bill.
However, in April 2001, Washington Headquarters Services installed new meters at the
Pentagon and Arlington National Cemetery. The Washington Headquarters Services is
the component responsible for the operation of the Pentagon utility system and for
financial payment for services received.

Prior to June 12, 2001, the U.S. Treasury sent the same meter reading and billing
information to the three Defense Virginia components, even though each component
was expected to pay only for its own usage. An outstanding balance remained on the
Defense Virginia bill because the Defense Virginia components paid based on the
amount the components believed they owed. In addition, WASA incorrectly included
Ronald Reagan National Airport’s water usage in the Defense Virginia shared meter
reading, even though WASA separately billed the Airport for water based on actual
usage. WASA overbilled the DoD users of the FOWM by approximately $2.0 million
for FYs 1990 through 2001. WASA is in the process of reconciling the bills and
payments for the users of the FOWM.

On June 12, 2001, the U.S. Treasury informed the Defense Virginia components that
Public Law 106-554 gave the U.S. Treasury authority to withdraw funds from agency
appropriations for unpaid water and sewer usage. To comply with the Public Law, the
U.S. Treasury requested WASA to allocate the Defense Virginia bill among known
users. WASA assisted the U.S. Treasury in resolving this issue by preparing an
estimated allocation based on the best information made available by the Federal
government. As a result, the Defense Virginia components resolved their outstanding
bill of $5.5 million on June 27, 2001. The following three paragraphs briefly discuss
the history and status of each Defense Virginia component.

         Pentagon. The U.S. Treasury billed the Pentagon $6.1 million for the period
of FY 1992 through FY 2001. Prior to June 25, 2001, the Pentagon paid $2.9 million,
and, as of June 27, 2001, the Pentagon paid the outstanding balance of $3.2 million for
FYs 1992 through 2001.

          Arlington National Cemetery. On June 12, 2001, the U.S. Treasury billed
Arlington National Cemetery $1.6 million for the period of FY 1992 through FY 2001.
Prior to June 25, 2001, the Cemetery had paid $305,000, leaving an outstanding
balance of approximately $1.3 million for FYs 1992 through 2001. The Cemetery sent
a letter on June 13, 2001, to the U.S. Treasury stating that their procedures since 1995
were to pay water bills based on engineering estimates because the Cemetery had not
installed individual water meters to account for consumption. Furthermore, the
Cemetery stated that the U.S. Treasury allocated bill was not reasonable and that
paying the bill would jeopardize the Cemetery's ability to accomplish its mission. The
Cemetery requested the U.S. Treasury to wait to withdraw funds until newly installed
water meters can be used to determine actual water usage. Nevertheless, the Cemetery
borrowed the $1.3 million, which was provided to the U.S. Treasury on June 27, 2001.

         Fort Myer. The U.S. Treasury billed Fort Myer $3.0 million for the period
of FY 1992 through FY 2001. As of June 25, 2001, Fort Myer had paid $2.0 million,
leaving an outstanding balance of $1.0 million. Fort Myer had not made any payments


                                       7
in FY 2001 because they had discontinued water services in January 1999. Although
Fort Myer now receives and pays for water services provided by Arlington County,
Fort Myer will continue to receive a bill from the U.S. Treasury until the FY 1999
actual meter readings are billed in FY 2002. As a result of its June 12, 2001, letter,
the U.S. Treasury withdrew $618,000 from Fort Myer’s appropriation on June 27,
2001, after applying a credit of $373,000. Therefore, Fort Myer’s bill is considered
paid in full.

Army. As of June 25, 2001, Army components owed a net $760,000, which was paid
on June 27, 2001.

         Walter Reed Army Medical Center. U.S. Treasury records indicated that
Walter Reed Army Medical Center owed $760,000 for water and sewer services
received during FYs 2000 and 2001. As a result of its June 12, 2001, letter, the U.S.
Treasury withdrew $760,000 from Walter Reed Army Medical Center’s appropriation
on June 27, 2001.

        Fort McNair. Fort McNair did not have any outstanding payments for
FYs 1992 through 2001.

Navy. U.S. Treasury records indicated that the Navy owed approximately $6.0 million
for water and sewer services received from FYs 1992 through 2001. The Navy has
reconciled payments with the U.S. Treasury for FYs 1992 through 1998. In addition,
more recent data from WASA states that the Navy’s actual water and sewer usage for
FYs 1999 and 2000 was $4.6 million. The actual usage was less than both the
$15.1 million estimated and the $8.9 million paid for those 2 years. However, as a
result of the June 12, 2001 U.S. Treasury letter, the Navy made two payments on June
27, 2001, totaling $6.0 million, to resolve the outstanding balances for FYs 1999 and
2000.

Air Force. As of June 25, 2001, the Air Force owed $6.2 million according to U.S.
Treasury records. However, as a result of the June 12, 2001, letter, the U.S. Treasury
withdrew $6.2 million from Air Force appropriations on June 27, 2001.

        Bolling Air Force Base. Bolling AFB owed the U.S. Treasury a total of
$4.1 million; $3.9 million of the $4.1 million was for FY 1992 through FY 2000 and
$194,000 was the remaining amount to be paid for FY 2001. Although the Air Force
had not paid the full amounts of the estimated bills of $3.3 million for FY 1999 and
$3.8 million for FY 2000, more recent data from WASA stated that Bolling AFBs
actual usage was $1.0 million for FY 1999 and $1.4 million for FY 2000. Also,
Bolling AFB had a balance of $194,000 because of an issue with two water meters at
Bolling AFB. Two water meters at Bolling AFB are calibrated in gallons, but WASA
bills report usage amount in Hundred Cubic Feet. The U.S. Treasury may have
overbilled Bolling AFB for the two water meters that are in gallons, and Bolling AFB
may be due a credit. However, on June 27, 2001, the U.S. Treasury withdrew
$4.1 million from Air Force appropriations.

       Andrews Air Force Base. Andrews AFB owed the U.S. Treasury a total of
$2.1 million. Andrews AFB was billed a total of $6.6 million for water consumption
for FYs 1991 through 1993. In June of 1993, Andrews AFB discontinued use of water


                                        8
   and sewer services received from WASA. The Washington Suburban Sanitary
   Commission now supplies water to Andrews AFB. As of June 25, 2001, the Air Force
   had paid the U.S. Treasury a total of $4.5 million of the billed amount, leaving a
   balance of $2.1 million. However, on June 27, 2001, the U.S. Treasury withdrew
   $2.1 million from Air Force appropriations to pay for prior water and sewer bills.

   National Imagery and Mapping Agency. The U.S. Treasury billed the National
   Imagery and Mapping Agency $5.9 million for the period of FYs 1992 through 2001.
   The National Imagery and Mapping Agency paid approximately $5.8 million of the
   amounts billed leaving an outstanding balance of $152,000. As a result of the June 12,
   2001, letter, the U.S. Treasury withdrew $152,000 from National Imagery and
   Mapping Agency’s appropriation on June 27, 2001.

Summary
   DoD Components have worked with the U.S. Treasury to reconcile all bills and
   payments for FYs 1992 through 2001. DoD has disagreements that are still unresolved
   concerning the accuracy of the estimates and timeliness of the bills. Based on Public
   Law 106-554, the U.S. Treasury withdrew or DoD Components paid the $18.4 million
   as of June 27, 2001.




                                          9
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD Components’ billing and payment information
    from FY 1992 through the fourth quarter of FY 2001 for water and sewer services
    provided by WASA. Specifically, we reviewed the U.S. Treasury billing and payment
    information for DoD Components from FYs 1992 through 2001, including checks from
    several DFAS centers. We reviewed bills received by DoD Components from the
    U.S. Treasury to establish the amounts billed for water and sewer services. We also
    reviewed DoD disbursement vouchers submitted to the U.S. Treasury from FY 1992
    through the fourth quarter of FY 2001, to determine the amounts paid by
    DoD Components. For the period, we obtained available water and sewer service bills
    from the U.S. Treasury totaling $102.6 million and DoD payments made to the
    U.S. Treasury totaling $84.2 million. We also received confirmation from the U.S.
    Treasury that the remaining $18.4 million was paid on June 27, 2001. We did not rely
    on computer-processed data for our review of billing and payment data from
    DoD Components. See Appendix B for a list of the DoD Components receiving water
    and sewer services from WASA.

    DoD-Wide Corporate Level Government Performance and Results Act Goals. In
    response to the Government Performance and Results Act, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance goals,
    and performance measures. This report pertains to achievement of the following
    corporate-level goal and subordinate performance goal:

           • FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain future by
              pursuing a focused modernization effort that maintains U.S. qualitative
              superiority in key warfighting capabilities. Transform the force by
              exploiting the Revolution in Military Affairs, and reengineer the Department
              to achieve a 21st century infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
              information management. (01-DoD-2.5)

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the DoD. This report provides coverage of the
    Financial Management high-risk area.

    Audit Period and Standards. We performed this financial-related audit from April
    through June 2001 in accordance with auditing standards issued by the Comptroller
    General of the United States, as implemented by the Inspector General, DoD. We
    performed our work in accordance with generally accepted Government auditing
    standards except that we were unable to obtain an opinion on our system of quality
    control. The most recent external quality control review was withdrawn on
    March 15, 2001, and we will undergo a new review.



                                           10
    Management Controls. The audit was a congressional request; therefore, we did not
    review the management control program.

    Contacts During the Audit. We visited or contacted individuals and organizations
    within the DoD and within the U.S. Treasury, the U.S. General Accounting Office, and
    the District of Columbia Water and Sewer Authority. Further details are available
    upon request.

Prior Coverage

    Inspector General, DoD

    Inspector General, DoD, Report No. D-2001-053, “DoD Payments to the U.S.
    Treasury for Water and Sewer Services Provided by the District of Columbia,”
    February 15, 2001

    Inspector General, DoD, Report No. D-2001-100, “Promptness and Completeness of
    FYs 2000 and 2001 DoD Payments to the U.S. Treasury for Water and Sewer Services
    Provided by the District of Columbia,” April 13, 2001




                                         11
Appendix B. DoD Customers of the Water and
            Sewer Authority
   According to the District of Columbia Water and Sewer Authority, the list
   below identifies the 18 DoD Components for which the Water and Sewer
   Authority provides estimated bills to the U.S. Treasury for water and sewer
   services for FYs 1992 through the fourth quarter of 2001.


   Army
    Arlington Cemetery
    Fort McNair
    Fort Myer
    Walter Reed Army Medical Center

   Navy
    Anacostia Naval Station
    Bellevue Naval Housing
    Marine Corps Barracks, 8th & I
    Naval Observatory
    Naval Research Laboratory
    Nebraska Avenue Annex
    Potomac Annex
    Washington Navy Yard

   Air Force
    Andrews Air Force Base
    Bolling Air Force Base

   Other Defense Organizations
    National Defense University Center
    National Imagery and Mapping Agency
    National War College
    Washington Headquarters Services




                                      12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Defense Organizations
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury




                                           13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         14
Air Force Comments
                         Final
                        Report
                       Reference




                      Revised,
                      Pages 6
                      and 8




                 15
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard Bird
Marvin L. Peek
Ronald W. Hodges
Michael L. Davitt
Lorin T. Pfeil
Robert P. Goldberg
Pauletta P. Battle
Charles A. Mordecai
Yalonda N. Blizzard
Nicole M. Ellis
Robert T. Goodwin
Stephen Wynne
